No.

IN THE
SUPREME COURT OF THE UNITED STATES

DAVID CLAYTON CONERLY—PETITIONER
VS.
UNITED STATES OF AMERICA—RESPONDENT
PROOF OF SERVICE
I, Steven S. Lubliner, am a member of the Bar of this Court. I declare
that on July 8, 2020, as required by Supreme Court Rule 29,1 served the
enclosed
PETITION FOR WRIT OF CERTIORARI TO THE U.S. COURT OF
APPEALS FOR THE NINTH CIRCUIT
APPENDIX IN SUPPORT OF PETITION FOR A WRIT OF
CERTIORARI TO THE U.S. COURT OF APPEALS FOR THE NINTH
CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
MOTION TO SUBMIT PRESENTENCE REPORT UNDER SEAL
PRESENTENCE REPORT [UNDER SEAL]
on each party to the above proceeding or that party’s counsel, and on every
other person required to be served. Pursuant to this Court’s April 15, 2020
order re COVID-19, and after obtaining consent from respondent’s counsel, I
served the above documents from my e-mail address of
sslubliner@comcast. net.

J

■J-

The names and addresses of those served are as follows:
Alexis Loeb, Esq. (Counsel for Respondent)
Office of the United States Attorney
450 Golden Gate Avenue, suite 10-101
San Francisco, CA 94102
(415) 934-5300
e-mail: alexis.loeb@usdoj.gov.
Pursuant to 28 U.S.C. § 1746,1 declare under penalty of perjury under the
laws of the United States of America that the foregoing is true and correct.
Executed on July 8, 2020 in Petaluma, California.

